0-5207

OR’QMAL

>r: 20-55447
No.

FILED
JUL IS 2020

2 : 20-CV-01133FMOKES

^O^fCFTLfECLERK

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA

William Joe Long

— PETITIONER

(Your Name)
vs.
California-CDCR

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Ninth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

William Joe Long
(Your Name)
22488 W. Virginia Blvd.
(Address)
California City/ CA 93504
(City, State, Zip Code)
N/A.
(Phone Number)

QUESTION(S) PRESENTED

1. When the Legislation oasses enactments pertaining to all
its citizens does not the (14th.Amendment) Equal Protection
apply to all it's citizens ?
2. Whenever there has been legislation to address the overcrowd­
ing in the prison system and the discretion has been given to
the beholder which has a direct interest in maintaining inmates
create a conflict of interest?
3. Who makes the determination of the interpretation of laws
enacted and their outcomes ?

LIST OF PARTIES

[x J All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
1. Cato v. U.S • / 70 F.3d,1103,1106(9th.Cir.1995) ;
2. Morrissey v. Brewer,408 U.S. 484,92 S . Ct.,2539,2600(1972);
3. People v. Garcia ( 2018 )_. 28 Cal. Add. 5th 961,971 :
__ _ ______ -.j
4. Doe v. Harris(1993) 57 Ca 1.2. d_ 740 ;
5. In re Estrada(1965) 63 Cal.2d 740 ;
6. In re Harris(1993) 5 C4th at 841,21 CR2d 3737
7. Johnson v. Dept.og Just ice ( 2015)60 Cal.4th 871,888-9;
8.City of Cleburn,Tex. v. Cleburn Living Center,473 U.S. 432,439, 105 S.Ct. 3249(1985) ;
9. Weinberger v. Weinsenfield,420 U.S. 636,638, fn.2 • / 95 S.cT.1225(1985( ;
10. People vs. Bi11ingsley(2018) Cal.App.5th. 1076,1080 ;
11. People v. Navarro(2007) 40 Cal.4th 668,681 ;
12. People v. Hill(1986) 185 Cal.App.3d 831,834.
i

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Cato v. U.S.,70 F.3d,1103,1106(9th.Cir.1995)
Morrissey v. Brewer,408 U.S. 484,92 S.Ct.2539,2600(1972)
People vs. Garcia (2018) 28 Cal.App.5th 961,971
In re Estrada(1965) 63 Cal.2d 740
Johnson v. Department of Just ice(2015)60 Cal.4th 871,888-9
People v. Bi11ingsley(2018)Cal.App.5th 1076,1080
People vs. Hill (1986) 185 Cal.App.3d 831,834

STATUTES AND RULES
Rule 11-FRAP
Rule 22-FRAP

USC § 2253
42 USC § 1983
28 USC 1915(A)
Cal.Penal Code 667.5
The Fourteenth Amendment U.S.Constitution
Rule 4 FRAP
Fifth Amendment Due Process
Cal.const. Art VI, §§ 4,11(b) ; VI ,10
Civil Code §§77(e)
Cal.Penal code §1170(d)(l)

OTHER

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Article One,sec.9 ;
Amendment One ;
Amendment Five ;
Amendment VIII ;
Amendment XIV ;
Fifth Amendment Due Process
Fourteenth Amednment-Equal Protection ;
Civil Proc. §§77(e) ;
28 USC 2253
42 USC § 1983 ;
28 USC § 1915(A) ;
Rule 11 FRAP ;
Rule 22 FRAP ;
Rule 4 FRAP ;

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _£A
the petition and is
[ $ reported at U-S.Court of Appeals (9th) Circuit- or>
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ *| reported at U . S.District
; or,
[ ] has been designated for publication but is not yet reported; or,
[ x] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _#c___to the petition and is
[ ?§ reported at California Supreme Court
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the N/^appears at Appendix___

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
|k ^ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was June 30,2020.
[ ] No petition for rehearing was timely filed in my case.
M A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: May 30,2020
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix #c
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

STATEMENT OF THE CASE
Petitioner was convicted in the Superior court for VoluntaryManslaughter ( P . C . § 192(a)), upon a plea-agreement, the court
sentenced the petitioner to the high-term of (11) years for
suffering a prior conviction; and proceeded to increase the
term under this same prior per the Three Strike Law, doubling
the term to (22) years, the court proceeded to increase the term
again under another provision of the Three Strike Laws for
suffering the same prior for an additonal (5) years, for a
total of (27) years.
Petitioner filed a Notice of Appeal immediately and has been
seeking relief throught a (12) year process of habeas review
and ultimately relief. Petitioner suffered this prior conviction
in (1993) prior to the enactment of the Thre Strikes Law was
enacted. This strike was not even part of the plea-agreement in
the 1993 case for one, and two it was used on three seperate
occasions to increase the term. Violating the rules of the
court and the statutory laws.
For the purpose of this appeal there has been two seperate
enactments recently passed by the California Legislature's. One
is the (Prop.#57-Early Parole) for offenders whom are serving
non-violent teerms or enhancements, the Three Strike enhancements
are non-violent, given that I have served the portion deemed
violent and at the states doing left the discretion to the Department of Corrections of California to implement. The second
enactment was (SB 1393) granting the courts authority to strike
or dismiss a sentencing enhancment in the interest of justice.
Petitioner stated that this interest is an illegal sentence.

REASONS FOR GRANTING THE PETITION
Petitioner claim to relief is based on what the Federal
oversight is to the states implemetning newly imposed enact­
ments which applies to all its citizens without creating two
classes of individuals?

Petitioner states that there needs

to be federal oversight which creates a straight line standard
for all states to follow and being on one accord with one another
alleviate differences on how

each state implements newly en­

acted legislation that equally effect all citizens in that state.
The other reason is once an enactment is passed and to be
implement within the states border, given the discretion to a
direct beneifactor is bias and a direct conflict of interest.
Speaking of solely given the Department of Corrections the
authority to determine the legislations intent and interpret the
langiage within the legislation.
When there is an issue that directly effects a states pop­
ulation and the legislation impose laws to address these issues
and when their is confusion on how the law is to interpreted,
shuoldn't the matter be brought back before the drafters of the
bill so that their intentions are questioned for clarification?
This will remove misinterpretations of second hand handlers of
the legislation reflecting their best interest, as well as allow­
ing the drafters to amend such sections which require further
clarification.

Eliminating writ to come before the U.S. Supreme

court for further litigation.

This Court's ability to make a determination 's on how
newly enacted laws are to be implemted removing future appealable issue's before this court. This Court can now in this
very instance create a

stare decisis

on having the states

legislation clarify their intent and not the intent of those whom
have a direct benefit. A stare decisis ruling will bring the
entire country into one accord for handling of future state
legislation which applies to all it's citizens and to avoid
■ further misinterpretations in the language of new bills.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

